AUDIT OF NARA'S IMPLEMENTATION 

         OF THE FEDERAL 

 DESKTOP CORE CONFIGURATION 


       OIG Report No. 08-10 


         August 26, 2008 

                                                                                OIG Audit Report No. 08-10



EXECUTIVE SUMMARY

The National Archives and Records Administration (NARA) Office ofInspector General
(OIG) completed an audit ofNARA's implementation of the Federal Desktop Core
Configuration (FDCC). During the audit, we evaluated NARA's status of implementing
FDCC; plans for applying FDCC across the enterprise; and reports to the Office of
Management and Budget (OMB) to determine whether NARA had adequately
implemented FDCC as required by OMB.

FDCC is an OMB mandated security configuration checklist l for Microsoft Windows XP
and Vista Operating system software. Developed by the National Institute of Standards
and Technology (NIST), the Department of Defense (DOD), and the Department of
Homeland Security (DHS), FDCC is a set of operating-system configurations, such as
password requirements and turning off unused services, designed to ensure security. In
March 2007, OMB directed agencies using Windows XP and Vista to adopt these
security configurations. Agencies were required to submit their draft implementation
plans to OMB by May 1, 2007 and adopt the standard security configurations by
February 1, 2008.

Our review found that NARA missed the deadline for implementation of the OMB
mandated FDCC settings and inaccurately reported their status to OMB. Additionally,
NARA has not:
   (a) Developed sufficient implementation and test plans;
   (b) Developed plans to resolve identified deviations from FDCC; and
   (c) Enforced FDCC password settings.

The use of a standardized security configuration checklist, such as FDCC, can reduce the
vulnerability exposure ofIT products and be particularly helpful to small organizations
for securing their systems. The FDCC settings were developed to improve information
security and overall network performance while lowering qperating costs. Effective and
well-tested security configurations mean less time and money is spent eradicating
malware2 , restoring systems from backups, and reinstalling operating systems and
applications. By not implementing these configurations, NARA is not able to achieve
these benefits and mitigate their cyber security risks.

We made five recommendations that when implemented will assist NARA in
implementing the mandated FDCC configurations.




I A security configuration checklist is a series of documented instructions for configuring a product to a
pre-defined operational environment.
2 Malware is software designed to infiltrate or damage a computer system without the owner's informed
consent. Malware includes computer viruses, worms, Trojan horses, spyware, and other malicious and
unwanted software.

                                               Page 1
                            National Archives and Records Administration
                                                                       OIG Audit Report No. 08-10



BACKGROUND

On March 22,2007, OMB issued memorandum, M-07-11, Implementation ofCommonly
Accepted Security Configurations for Windows Operating Systems, directing agencies
who use Windows XP and Vista to adopt the security configurations developed by NIST,
DoD, and DRS. While not addressed specifically as "Federal Desktop Core
Configuration", the FDCC was originally called for in this memo to all Federal agencies
and department heads and in a corresponding memorandum, Establishment of Windows
XP and VISTA Virtual Machine Procedures for Adopting the Federal Desktop Core
Configurations, from OMB to all Federal agency and department Chief Information
Officers (CIOs). Agencies with these operating systems were required to submit their
draft implementation plans to OMB by May 1, 2007 and adopt the standard security
configurations by February 1, 2008. NARA employs the Windows XP operating system
and thus falls within this population.

To develop the FDCC settings, DoD worked with NIST and DRS to reach a consensus
agreement on security configurations for Windows XP desktops. The Windows XP
FDCC is based on the Air Force's customization of the recommendations in NIST
Special Publication (SP) 800-68, Guidance for Securing Microsoft Windows XP Systems
for IT Professionals: A NIST Security Configuration Checklist, which was created in
October 2005 to assist IT professionals in effectively securing Windows XP Professional
Systems. With these settings, information is more secure, overall network performance is
improved, and overall operating costs are lowered.

In order to report compliance with FDCC, NIST developed a suite of interoperable and
automatable security standards know as the Security Content Automation Protocol
(SCAP). To achieve the goals set forth in OMB Memorandum M-07-11, it is necessary
for agencies to have a security configuration scanning tool that uses official SCAP
content. Through the use of SCAP compliant tools and official FDCC SCAP content,
agencies can routinely monitor their system to ensure that the FDCC settings have not
been altered as a result of patching, installation of new software, or human interaction.
The tools compare the deployed configuration against the official SCAP FDCC content
and report on any discrepancies so corrective action can be taken.

As an integral part of the continuous monitoring of systems configured to FDCC,
agencies must report their testing results to OMB and NIST. Using the SCAP reporting
format enables NIST to effectively collect and organize the results for analysis and
trending over time. NIST will aggregate the results from all agencies, but will not
generally provide direct feedback to each individual agency concerning their results.

NARA's Office ofInformation Services (NH) manages all matters relating to information
technology programs, projects, processes, and infrastructure. NH is responsible for
ensuring that NARA's IT program conforms to all NARA and Federal standards,
policies, and guidelines for interconnectivity and interoperability, computer system
efficiency, and computer security. Within NH, the Information Technology Services
Division (NHT) oversees the delivery of network and computer services across the
enterprise and the Information Technology Security Staff (NHI) develops and maintains

                                           Page 2
                        National Archives and Records Administration
                                                                             OIG Audit Report No. 08-10


NARA's agency-wide infonnation technology security program. Members ofNHT and
NHI are working together to implement the FDCC settings at NARA.

NARA has about 4,100 Windows XP workstations located at Archives I, Archives II, and
various regional offices around the country. Currently, there are 12 variants of a
Windows XP Professional baseline image running on these workstations. NARA plans
to create and deploy a new baseline image complaint with the FDCC settings by July 28,
2008. With the use ofNovell ZENworks 3, NARA plans to automatically distribute and
manage the FDCC settings for their Windows XP workstations. To report their
compliance to OMB, NARA purchased ThreatGuard's Secutor Prime software, which is
capable of using NIST's SCAP content.

OJECTIVE, SCOPE, METHODOLOGY

The objective of this audit was to detennine whether NARA had adequately implemented
the FDCC settings as required by OMB. Specifically, we detennined whether NARA (a)
met the OMB mandated deadline; (b) adequately reported their status to OMB; and (c)
developed adequate plans for implementing FDCC across the enterprise.

We examined applicable laws, regulations, NARA guidance, and other IT-related
guidance, including (a) Federal Infonnation Security Management Act; (b) OMB
Memorandum M-07-11, Implementation ofCommonly Accepted Security Configurations
for Windows Operating Systems; (c) NIST SP 800-68, Guidance for Securing Microsoft
 Windows XP Systems for IT Professionals: A NIST Security Configuration Checklist; (d)
NIST SP 800-70, Security Configuration Checklists Program for IT Products - Guidance
for Checklist Users and Developers; and (e) NARA Interim Guidance 804-2, NARANET
Password Requirements.

To accomplish our objective, we reviewed and analyzed: (a) NARA's FDCC status
reports and implementation plans submitted to OMB; (b) deviation reports; (c) Request
for Change (RFC) for the deployment of current standard Group Policy/Windows
Operating System Settings; and (d) Plan of Action and Milestones (POA&Ms). In
addition, we interviewed the NARA CIO and NH officials responsible for implementing
FDCC to detennine whether they were able to meet the OMB mandated deadline and
identify any possible constraints in the meeting the deadline.

Our audit work was perfonned at Archives II in College Park, MD between April 2008
and July 2008. We conducted this perfonnance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and
perfonn the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.

3Novell ZEN works uses a Policy-Driven Automation to reduce and in some cases eliminate desktop
management tasks such as software distribution, software repair, desktop configuration, workstation
imaging, remote management, and workstation inventory throughout the lifecycle of the device.

                                              Page 3
                           National Archives and Records Administration
                                                                               OIG Audit Report No. 08-10


FINDINGS AND RECOMMENDATIONS

FDCC Settings Not Implemented

NARA missed the deadline for implementing the OMB mandated FDCC settings across
their enterprise. This condition occurred because of lack of management attention,
resources, and experience with automated tools. OMB Memorandum M-07-11,
Implementation ofCommonly Accepted Security Configurations for Windows Operating
Systems, required agencies to adopt the standard security configurations (FDCC) by
February 1,2008. According to an OMB official, OMB expects agencies to implement
the requirements of memoranda on a timely basis. By not implementing these settings,
NARA desktops are not set to the most secure and restricted configuration settings.

In their February 6,2008 submission to OMB, NARA reported that none of its 4,1004
Windows XP desktops were fully compliant with the FDCC. According to an NH
official, NARA has no method or tool in place to determine the level of compliance for
the workstations currently used. However, scans conducted by an NH official in
December 2007 and April 2008 oftwo existing workstations reported that they were 57%
and 67% compliant with FDCC. In March 2008, NARA developed a standard baseline
imageS for desktops that was reported by NH as 92% compliant with the FDCC settings.
However, this image is not scheduled to be deployed to NARA desktops until July 28,
2008, almost six months past the OMB deadline.

NARA was not able to implement FDCC due to a lack of management attention,
resources, and experience with automated tools. The FDCC Request for Change (RFC)6
was not submitted for approval until March 13, 2008, almost six weeks after the OMB set
deadline. In addition, NH officials were not assigned responsibility for implementing
FDCC until after the OMB deadline. We were informed by the CIO that resources were
not available for the implementation ofFDCC prior to the deadline; however, additional
resources were not identified or requested during this time. According to the CIO, NH
did not have the funding, manpower, or tools to implement FDCC. Further, NARA did
not have a plan or prior experience using Novell ZENworks to distribute or to manage
Windows XP desktop settings.

Consequently, NARA desktops are not set to the most secure and restricted configuration
settings. The FDCC settings were developed to improve information security and overall
network performance while lowering operating costs. By not implementing these


4 In the submission to OMB, NARA incorrectly reported 4,400 workstations. The number of workstations 

reported should have been 4,100. 

5 A standard baseline image is a set of standard software, which usually includes the operating system (e.g. 

Windows XP), word processing, spreadsheet, presentation, and database management software (e.g. Office 

XP), along with an Internet browser (e.g., MS InternetExplorer or Netscape) and an e-mail package (e.g. 

GroupWise), that is preloaded on each desktop. 

6 RFCs are forms used to submit, track, and manage requests for changes to configuration items that 

comprise the NARA Enterprise Architecture (EA) work products when those changes are not identified as 

part of the EA Program Plan. 


                                               Page 4
                            National Archives and Records Administration
                                                                           OIG Audit Report No. 08-10


configurations, NARA is not able to achieve these benefits and mitigate their cyber
security risks.

Recommendation 1

The CIO should:

    (a) Define those resources required to implement FDCC and seek additional funding
        if required.

    (b) Develop a plan to automate the distribution ofFDCC settings to individual
        desktops.

Management Comment(s)

Management concurred with recommendations and indicated that actions have been
completed.

OIG Response to Management Response

We disagree with part of management's position. While we did receive the latest
Request for Proposal (RFC), which included an approach to implement the FDCC
settings, the finding remains open. NARA has not completed the implementation of the
FDCC. As of August 19, 2008, FDCC settings have been successfully applied to about
76 percent ofNARA's desktops (3,123 of approximately 4,100). In addition, failures
were identified in at least 298 desktops and remain unresolved.


Inaccurate Reporting to OMB

The status report submitted to OMB on March 31, 2008 was inaccurate and did not meet
OMB's reporting guidelines to demonstrate compliance with OMB M-07-11. This
condition occurred because NARA had no automated method or tool in place to
determine the level of compliance for the workstations currently in use. By not
accurately reporting to OMB, OMB is not aware ofNARA's current status and NIST
cannot make any necessary changes to the FDCC program.

OMB Memorandum M-07-11 required agencies to adopt the standard security
configurations (FDCC) and subsequent NIST and OMB instructions required agencies to
report the details of their implementation status. Specifically, OMB and NIST required
agencies to report computer counts and FDCC deviations7 for each operational
environment/system present within the agency. Agencies were required to report on a
single representative computer for each combination of environment/system role and
FDCC operating system and then report the number ofFDCC deviations.

7 For each FDCC setting, NIST assigned an identification number. Agencies were required to submit the
total number of non-compliant FDCC settings and list them by their identification number.

                                              Page 5
                           National Archives and Records Administration
                                                                      OIG Audit Report No. 08-10




In their March 31, 2008 report to OMB, NARA reported on a sample of three desktops
that contained the new baseline image, which had not been deployed enterprise wide.
Therefore, the sample was not representative ofNARA's currently Centrally Managed
General Purpose Desktop Environment and the number of deviations was not
representative ofNARA's implementation status. While NARA reported only 18 FDCC
deviations, the deployed desktops used by the agency had numerous deviations.
Specifically, a scan of an existing desktop showed at least 119 deviations from the FDCC
settings.

In addition, NARA did not report on all of the operational environments/systems within
the agency. Subsequent to the submission, a NH official identified additional desktops
that were not captured in their March 2008 report to OMB. These additional desktops are
part ofNARA's classified systems, which use the Windows XP operating system, but are
not part of the Centrally Managed General Purpose Desktop Environment.

NARA was unable to report on the compliance of their workstations currently in use
because of the variety of baselines installed on these workstations. Currently, there are
12 variants of a Windows XP Professional baseline image running on these workstations.
These settings are not currently managed through a central method, which restricts the
ability to verify the level of compliance of all enterprise workstations. NH officials
decided not to expend resources in testing the compliance of each ofthese baselines and
any variants. Instead, they reported on the baseline that was created to be in compliance
with FDCC. Additionally, the OMB submission did not allow for additional comments
for NH officials to provide clarifying statements.

By not accurately reporting to OMB, OMB is not aware ofNARA's current status and
NIST cannot make any necessary changes to the FDCC program. In addition, NARA has
no basis for requesting additional resources to implement FDCC settings.

Recommendation 2

We recommend the CIO provide a disclaimer statement in their next status report to
OMB, stating that the sample is not representative of their current environment and an
explanation.

Management Comment(s)

Management concurred with recommendation.




                                          Page 6
                       National Archives and Records Administration
                                                                          OIG Audit Report No. 08-10


Implementation and Test Plans Not Developed

NARA did not develop sufficient implementation and test plans for applying FDCC
settings across the enterprise as required by OMB and recommended by NIST. This
condition occurred because of a lack of staffing resources and management attention.
Without adequate plans, NARA's successful implementation ofFDCC could be at risk.

                                     Implementation Plans

OMB Memorandum, M-07-11, required agencies to develop draft implementation plans
for Commonly Accepted Security Configurations (FDCC) and submit the plans to OMB
by May 1, 2007. A subsequent OMB Memorandum to agency CIO's outlined the
required elements for the implementation plans. According to this memo,
implementation plans should have described various items such as testing, implementing,
and automating enforcement of these configurations.

In the implementation plan submitted to OMB on April 30, 2007, NARA briefly
addressed each of the required items. However, none of the items addressed how NARA
would implement the FDCC for their Windows XP desktops. For example, NARA's
response to "ensuring these configurations are incorporated into agency capital planning
and investment control (CPIC) processes" only stated the following:

    An integral component ofNARA's CPIC process is a review of potential investments
    by the agency Enterprise Architecture Review Board (ARB). The ARB was
    constituted in December 2006. Conformance to the agency approved Technology
    Standards Profile is considered to be part ofthe technical review process within the
    ARB.

NARA's response did not indicate whether implementing these configurations was
incorporated in their CPIC process. We found that the FDCC requirement had not been
included in NARA's CPIC process, which ensures that senior management has the
timely, accurate information required to authorize information systems development and
financial commitments. If the FDCC requirement was included in NARA's CPIC
process, adequate plans and resources could have been developed and assigned.
Therefore, the plans submitted to OMB were not sufficient to implement FDCC settings.

In March 2008, a month after the OMB deadline, the Information Technology Services
Division (NHT) recommended two approaches to bring all workstations into compliance
with FDCC. The first was through the use of the PC Refresh8 and the second was
through the development of centrally managed security policies that could be deployed to
current workstations. However, as of May 2008, formal plans and schedules to
implement these two approaches have not been developed.



8 During the PC Refresh, NHT will replace 25% of the current workstations within NARANet. All of the
new workstations will receive the 92% FDCC compliant baseline image.

                                             Page 7
                          National Archives and Records Administration
                                                                             OIG Audit Report No. 08-10


                                              Test Plans

According to NIST, adequate testing is an important element in implementing new
security settings, such as FDCC. Prior to introducing any system modification in the
production environment, configurations should be tested in a non-production
              9
environment to identify adverse effects on system functionality. NIST recommends
testing for all security controls to determine what impact they have on system security,
functionality, and usability, and taking appropriate steps to address any significant issues.
With regards to FDCC settings, NIST stated that there are a number of settings which
will impact system functionality and agencies should test thoroughly before they are
deployed in an operational environment.

We found that Test Plans have not been developed for testing the FDCC settings at
NARA. One contractor involved in the process warned that there will have to be some
extensive testing with the following NARA systems: Order Fulfillment and Accounting
System (OFAS), Records Management Application (RMA), and Case Management and
Reporting System (CMRS). Despite this warning, test plans have not been developed.

Implementation and test plans were not developed due to a lack of staffing resources and
lack of management attention. When asked why resources were not allocated to develop
plans for implementing FDCC, the CIO stated, "It is difficult to keep up with all the
OMB data calls and new requirements." Also, we were informed by NH officials that
NARA had limited staff to test configurations and correct any identified problems.
However, additional resources have not been identified or requested.

The OMB policy analyst heading the FDCC initiative was quoted as saying OMB "wants
agencies to understand their universe and have a plan to get to FDCC compliance".
Without adequate plans, the implementation of FDCC may not be successful. If adequate
test plans are not developed, functionality or usability problems may not be identified and
certain settings could cause unexpected problems.

After completion of our audit fieldwork, we were provided with test procedures for the
installation of the FDCC settings on NARA workstations. We will analyze these
procedures and provide our opinion in a subsequent reporting document.

Recommendation 3

We recommend the CIO to allocate resources to develop adequate implementation and
testing plans.

Management Comment(s)

Management concurred with recommendation and indicated that actions have been
completed.

9 Non-production environments allow developers to test new configurations prior to implementing in the
production environment.

                                              Page 8
                           National Archives and Records Administration
                                                                        OIG Audit Report No. 08-10




OIG Response to Management Response

We disagree with part of management's position. While we did receive copies of the
implementation and test plans, NARA has not successfully implemented the FDCC
settings. In addition, our review of the test plans and results disclosed that the test results
were incomplete and did not indicate how or if testing errors were corrected.


Plan of Action and Milestones Not Created

NARA has not developed adequate plans to resolve the identified deviations from FDCC
as required by the Federal Infonnation Security Management Act (FISMA) and OMB.
This condition occurred because NH officials failed to include the FDCC deviations on
their Plan of Action and Milestones (POA&M) and had no definitive plans for
implementing most of the FDCC deviations. A similar finding was identified in OIG
Report No. 08-05, Audit ofNARA 's Compliance with the Federal Information Security
Management Actfor FY 2007. By not including these deviations in a POA&M, the CIO
may not have proper visibility of the deviations and cannot use the POA&M as an
effective management tool to request and allocate resources to implement FDCC security
settings.

FISMA requires Federal agencies to develop a process for planning, implementing,
evaluating, and documenting remedial actions to address any deficiencies infonnation
security policies, procedures, and practices of the agency. OMB Memoranda M-02-01,
Guidance for Preparing and Submitting Security Plans ofAction and Milestones, and M­
04-25, Reporting Instructions for the Federal Information Security Management Act,
provide instructions on how to implement a Plan of Action and Milestones (POA&M)
process and infonnation needed to report and track weaknesses identified. The purpose
of the POA&M is to help agencies in identifying, assessing, prioritizing, and monitoring
the progress of corrective efforts for security weaknesses found in programs and systems.

We found that NARA had not developed adequate plans to resolve the identified
deviations from FDCC. Ofthe 18 deviations identified in NARA's proposed baseline
image for Windows XP desktops, only four were included in a POA&M. The 14
deviations not included in a POA&M consist of settings related to passwords, encryption,
automatic logons, and administrator account status.

Most of the 14 deviations were not included in a POA&M because NARA did not have
definitive plans for implementing these items by a specified date. However, NH officials
are now considering creating a single POA&M item to review the remaining FDCC
setting deviations on a defined, periodic basis to evaluate what can be done to bring them
in compliance.




                                            Page 9
                         National Archives and Records Administration
                                                                         OIG Audit Report No. 08-10


By not including these deviations in a POA&M, the CIO may not have proper visibility
of the deviations and cannot use the POA&M as an effective management tool to request
and allocate resources to implement FDCC security settings.


Recommendation 4

We recommend the CIO include the remaining FDCC deviations in a POA&M and
address each of these items.

Management Comment(s)

Management concurred with recommendation.


Strong Password Requirements Not Implemented

NARA has not implemented the required FDCC password settings. This condition
occurred because NARA's password policy has not been updated for the use of strong
passwords requirements. Additionally, weaknesses related to passwords, password
management, and access controls have been identified in several past OIG ReportslO.
Without strong password requirements, NARA is at risk of an individual gaining
unauthorized access, which can lead to the loss of data confidentiality and integrity.

FDCC follows the Password Policy Settings outlined in NIST SP 800-68, Guidance for
Securing Microsoft Windows XP Systemsfor IT Professionals: A NIST Security
Configuration Checklist, October 2005. These settings include enforcing password
history, maximum password age, minimum password age, minimum password length,
and complexity requirements. NARA's password requirements are outlined in NARA
Interim Guidance 804-2, NARANET Password ReqUirements, dated December 11,2001.
This guidance describes the minimum length and complexity requirements for
NARANET passwords.




\0 These reports include Audit of the NARA Systems Security Program, OIG Report No. 01-05; Firewall
and Network Configuration Advisory Report, OIG Report No. 02-12; Evaluation ofthe NARA's Password
Controls, OIG Report No. 04-23; and Audit ofNARA's Network Perimeter, OIG Report No. 06-01.

                                            Page 10
                          National Archives and Records Administration
                                                                      OIG Audit Report No. 08-10




When asked about constraints in implementing these settings, NH officials stated that one
of these settings cannot be implemented because of a technical problem with Novell. •
---Redacted pursuant to FOIA Exemption b(2)---- NH Officials were not aware of any
other technical difficulties with the remaining password           However NH officials
      .ve the         will cause difficulties for U"~'''.''-''''''


                                  Perceived difficulties with conforming to FDCC
settings do not validate nonconformance with government-wide requirements.

Access controls such as strong password requirements increase network and application
security. Passwords are NARA's first line of defense in protecting user email accounts
and other NARA information assets. Without strong password requirements, NARA is at
risk of an individual, who is not permitted to access a system, to gain unauthorized
access, which can lead to the loss of data confidentiality and integrity.

Recommendation 5

The CIO should

   (a) Update NARA's password requirements to include the requirements detailed in
       NIST SP 800-68 and FDCC settings.

   (b) Implement FDCC password requirements for NARA desktops.

Management Comment(s)

Management did not concur with recommendation. Management suggested rewording
the recommendation to state NARA should re-evaluate its current password policy and
conduct a risk assessment of the impact of modifying its current policy to match FDCC
settings.

OIG Response to Management Response

We do not concur that management should re-evaluate its current password policy and
conduct a risk assessment. Our recommendation reflects the OMB mandated FDCC
password requirements. According to an OMB official, OMB expects 100 percent
compliance and if an agency is not compliant, they should have to plan to get to full
FDCC compliance.




                                         Page 11
                       National Archives and Records Administration
                      National Archives and Records Administration
                                                                                              8601 Adelphi Road
                                                                             College Park, Maryland 20740,-6001


Date:                      .
                   AUG 1 9 2008

To: 	         Office of Inspector General (OIG)

From: 	       Office of Information Services (NH)

Subject: 	    Comments on Draft Report 08-10: Audit ofNARA's Implementation ofthe Federal
              Desktop Core Configuration                    .

             We thank you for the opp'ortunity to review and comment on the subject draft report, as well
             as for meeting with us on August 7th and making agreed-upon changes to the report. As we
             discussed at the meeting, what follows are our comments on each ofthe recommendations and
             the current status of our FDCC implementation. While we acknowledge the "snapshot in
             time" for this and·otherperformance audits, we do hope the DIG will note and acknowledge
             the progress we have made since the field work was completed for this audit earlier this year.

             Our Office continues to work diligently to comply with this and other OMB mandates to
             secure all our IT systems to ensure reliability, integrity, and availability ofNARA information
             resources. Please call me at any time to discuss our IT program for this arid any other issue.

             Technical questions about the ~tatus of our FDCC implementation can be directed to
             --j,(6)-----: or                 f,/c)-­




             ~~~
             Assistant Archivist for Information Services




                                   NARA 's web site is http://www.archives.gov
.. 



                        COMMENTS ON OIG DRAFT REPORT 08-10: 

              AUDIT OF NARA'S IMPLEMENTATION OF THE FEDERAL DESKTOP 

                                CORE CONFIGURATION 


        Recommendation 1 - Management Comment(s): We concur with the recommendation.
        Both items (a) and (b) have already been completed. RFC 1601 (provided to the auditor)
        includes the history of work that has occurred to meet both of these recommendations.

        Recommendation 2 - Management Comment(s): We concur with the recommendation,
        provided NIST or OMB allow for any explanations to be provided with future submissions
        related to FDCC. However, the desktop environment currently is much different than what
        was current at the·end of March 2008. If the recommendation is to provide a disclaimer
        regarding the March submission to NIST, and not what is current at the time of the next status
        report, then this can be done provided there is the ability to provide additional explanations
        withthe submission.

       Recommendation 3 - Management Comment(s): We concur with the recommendation.
       As stated under recommendation 1 above, implementation and test plans have already been
       developed and FDCC settings (minus deviations) have already been pushed to desktops
       enterprise-wide. RFC 1601 includes the history of work that has occurred to meet this
       recommendation.

       Recommendation 4 - Management Comment(s): We concur with the recommendation.
       The remaining FDCC deviations have been individually added to the "NARANET GSS
       Desktops" Plan of Action and Milestones (POA&M).

       Recommendation 5 - Management Comment(s): The recommendation as currently worded
       does not fit in with NARA's plans to address the password-related.FDCC deviations on the
       agency's desktops. As such, we do not concur with this recommendation as it is currently
       constructed. We would suggest that the recommendation be re-worded to state that NARA
       will re-evaluate its current password policy and conduct a risk assessment of the impact of
       modifying its current policy to match FDCC settings.

       The password settings that deviate from FDCC settings have been added to the NARANET
       GSS Desktops POAM, where they will be evaluated and tracked. Five of the current
       deviations are related to password settings. As part of re-evaluating the current password
       settings and possibly changing them to match the FDCC, NARA would need to implement
       these same settings within'
       - - - - - - - - jp'J/' jy(;;.)




                                   NARA 's web site is http://www.archives.gov
